     FORMER DIRECTOR AND CHIEF EXECUTIVE OFFICER
       OF CORPORATION SUB-GRANTEE FOUND GUILTY

On August 24, 2001, after an eight-day jury trial in United States District Court, Northern
District of Mississippi, Oxford, Mississippi, Ms. Ruby Buck, of the Mississippi Action
for Community Education, also known as MACE, was found guilty of one count of
misapplication of Corporation for National Service (Corporation) AmeriCorps grant
funds and fifteen counts of submitting fraudulent AmeriCorps participant documents to
the Corporation. Sentencing is scheduled for later this year.

MACE, located in Greenville, Mississippi, was a sub-grantee of Congressional Hunger
Center, a non-profit organized to promote feeding the hungry. As the former Director and
Chief Executive Officer, Ms. Buck was responsible for the overall operation of MACE.

During the trial, prosecutors presented evidence that included testimony by Special Agent
Nicholas Padilla, Jr., of the Corporation’s Office of Inspector General, and several others
interviewed by Special Agent Padilla. Also admitted as evidence were numerous
documents obtained by Special Agent Padilla, and a sworn statement Ms. Buck provided
to Special Agent Padilla. The evidence presented supported charges that from 1996 until
the fall of 2000, Ms. Buck provided supplemental salaries to MACE employees by
fraudulently reporting them to the Corporation as full-time AmeriCorps members. This
enabled the MACE employees, none of whom were performing AmeriCorps service, to
receive the Corporation-funded AmeriCorps stipends in addition to their salaries provided
by MACE. The fraudulent reporting of MACE employees as AmeriCorps members
resulted in the criminal misapplication in excess of $116,000 of Corporation-funded
stipend payments.
